WILMA PENNINGTON-THURMAN - PETITIONER
vs.

SANSONE GROUP DDR LLC - RESPONDENT
PROOF OF SERVICE
I, Wilma Pennington-Thurman do swear or declare that on this date, December 28, 2020, as
required by Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each
party to the above proceeding or that party’s counsel, and on ever other person required to be
served by depositing an envelope containing the above documents in the United States mail
properly addressed to each of them and with first-class postage prepaid, or by delivery to a thirdparty commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Patrick T. McLaughlin, Attorney for Sansone Group LLC
Spencer Fane
1 North Brentwood Blvd., Suite 1000
St. Louis, Missouri 63105
314 863-7733
I declare under penalty of perjury that the foregoing is true and correct.
Executed on December 28,2020

(Signature)

!L

Additional material
from this filing is
available in the
Clerk's Office.

